Report No. D-2010-RAM-019               August 27, 2010




   Army Projects in the DOD Near Term Energy-Efficient
     Technologies Program Funded by the American
         Recovery and Reinvestment Act of 2009
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

BAA                           Broad Agency Announcement
FAR                           Federal Acquisition Regulation
FBO                           Fedbizopps
FPDS                          Federal Procurement Data System
NTEET                         Near Term Energy-Efficient Technologies
OMB                           Office of Management and Budget
RDECOM                        Research, Development and Engineering Command
RDT&E                         Research, Development, Test, and Evaluation
USACE                         U.S. Army Corps of Engineers
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202--4704




                                                                          August 27, 20 \ 0

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CmEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
               ASSISTANT SECRETARY OF THE ARMY (ACQUISITION,
                  LOGISTICS, AND TECHNOLOGY)
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Projects in the DOD Near Tetm Energy-Efficient Technologies
         Program Funded by the American Recovery and Reinvestment Act of2009
         (Report No. D-20 \ o-RAM-o \9)

We are providing this report for your review and comment. We considered comments on
a draft of this report from the Executive Director, U.S. Army Research, Development,
and Engineering Command Contracting Center, when preparing the fmal report. The
Executive Director's comments were partially responsive to the intent of the
recommendations.

DOD Directive 7650.3 requires that recommendations be resolved promptly. We request
that the Executive Director, U.S. Army Research, Development, and Engineering
Command Contracting Center verify the implementation of Recommendations 1 and 2 by
September 13, 2010, or provide specific date(s) when the recommendations will be
completed.

Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
your comments must have the ·actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
THIS PAGE INTENTIONALLY LEFT BLANK 

Report No. D-2010-RAM-019 (Project No. D2009-D000AB-0170.001) 	                     August 27, 2010

              Results in Brief: Army Projects in the DOD
              Near Term Energy-Efficient Technologies
              Program Funded by the American Recovery
              and Reinvestment Act of 2009
                                                      The Army did not include Recovery Act clauses
What We Did                                           because contracting officers did not follow
We audited the implementation of the DOD              DOD and OMB guidance. The Army did not
Near Term Energy-Efficient Technologies               inform the public of its intent to use existing
(NTEET) Program Plan, May 15, 2009.                   contractors to perform the Silicon Research
Specifically, we reviewed the status of eight         NTEET project and did not describe the
Army non-small-business NTEET research and            procurement in the award notice of the Testbed
development projects valued at $72.9 million          Equipment project because of a lack of
(1) to determine whether DOD and the                  contracting office oversight.
Department of the Army complied with
Recovery Act requirements, Office of                  What We Recommend
Management and Budget (OMB) guidance, the             We recommend that the Commander, Army
Federal Acquisition Regulation (FAR), and             Research, Development, and Engineering
DOD implementing guidance and (2) to ensure           Command:
that planning and implementation efforts by            direct contracting officers to include
DOD and the Army facilitated accountability              appropriate FAR clauses in solicitation
and transparency.                                        announcements posted on public Web sites
                                                         and
What We Found                                         	 implement OMB guidance on Recovery Act
Army project officials used competitive                  contracts and cooperative agreements
techniques such as Broad Agency Agreements               solicited and awarded by the Command.
or cooperative agreements to solicit or award
contracts for six of eight Army Recovery Act          Management Comments and
NTEET projects. As of December 31, 2009,              Our Response
contracts or cooperative agreements, valued at
                                                      The Executive Director, U.S. Army Contracting
$22.5 million, were awarded for three of the
                                                      Command, and the Executive Director, U.S.
eight projects. However, the Army should have:
                                                      Army Research, Development, and Engineering
                                                      Command Contracting Center, agreed with the
    	 included required Recovery Act contract        report recommendations. The comments were
       clauses in solicitations for two NTEET         only partially responsive to the intent of the
       projects,                                      recommendations as the comments did not
    	 informed the public of its intent to use       include completion date(s). We request further
       existing contractors to perform the            comments regarding the dates. Please see the
       Silicon Research NTEET project, and            recommendations table on the back of this page.
    	 provided a description of the
       procurement in the notice of award for
       the NTEET Testbed Equipment project.

                                                  i
Report No. D-2010-RAM-019 (Project No. D2009-D000AB-0170.001)            August 27, 2010


Recommendations Table
         Management                   Recommendations           No Additional Comments
                                     Requiring Comment                 Required
Commander, U.S. Army Research,   1 and 2
Development, and Engineering
Command




                                            ii
Table of Contents

Introduction	                                                                       1


      Objectives                                                                    1

      Recovery Act Background                                                       1

      Review of Internal Controls                                                   5


Finding. Army Near Term Energy-Efficient Technologies Program 

          Implementation                                                            6


      Management Comments on the Finding and Our Response                          10

      Recommendations, Management Comments, and Our Response                       11 


Appendices

      A. 	Scope and Methodology                                                    12 

           Prior Coverage                                                          13 

      B. Recovery Act Criteria and Guidance 	                                      14 

      C. 	DoD Near Term Energy-Efficient Technologies Program Funding and 

           Functional Areas                                                        16 

      D. 	Description and Status of Army Near Term Energy-Efficient Technologies     

           Projects                                                                18 


Management Comments

      U.S. Army Contracting Command 	                                        21 

      U.S. Army Research, Development, and Engineering Command Contracting 	 22 

        Center 

THIS PAGE LEFT INTENTIONALLY BLANK

Introduction
Objectives
The primary objective of the audit was to determine whether DOD and its Components
are planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act; Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009; and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
execution of eight Near Term Energy-Efficient Technologies (NTEET) Program research
and development projects to ensure that Army contracting efforts complied with
Recovery Act requirements, the OMB guidance, the Federal Acquisition Regulation
(FAR), and DOD implementing guidance. See Appendix A for a discussion of our scope
and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest	 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contained specific FAR clauses;
that Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results

                                                   1

on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction; Near
Term Energy-Efficient Technologies; and U.S. Army Corps of Engineers (USACE) Civil
Works.

The values of the six programs are shown in Table 1.
    Table 1. DOD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                               $120
    Facilities Sustainment, Restoration, and Modernization      4,260
    Homeowners Assistance                                         555
    Military Construction                                       2,185
    Near Term Energy-Efficient Technologies                       300
    U.S. Army Corps of Engineers Civil Works                    4,600
       Total                                                 $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.




                                           3

Army NTEET Program
Under the Recovery Act, Congress appropriated $300 million for DOD Research,
Development, Test, and Evaluation (RDT&E) funds in four appropriation accounts of
$75 million each for Army, Navy, Air Force, and Defense-wide NTEET Recovery Act
projects. Each Military Department and Defense agency submitted RDT&E candidate
projects for review in five broad areas:

       fuel optimization for mobility platforms,
       facility energy initiatives,
       operational efficiencies/commercial practices,
       domestic energy supply/distribution, and
       tactical power systems/generators.

See Appendix C for a description of each of these five program funding and functional
areas.

The DOD Energy Security Task Force, with members from the Military Departments,
Defense agencies, and the Office of the Secretary of Defense and chaired by the Director,
Defense Research and Engineering, reviewed the projects. The DOD Energy Security
Task Force selected the Army NTEET projects shown in Table 2 based on their ability to
satisfy DOD capability gaps, present opportunities for military applications, or spur
initiatives within industry and DOD Components.


 Table 2. Army RDT&E Recovery Act Projects Funded by RDT&E Appropriation
                                          Projects                                              Amount
                                                                                              (in millions)
1. Advanced Power Electronics Ground Systems Testbed Equipment (Testbed Equipment                $14.58
     project)
2. High Temperature Silicon Carbide Power Semiconductors (Silicon Research project)              12.15
3. High Temperature Silicon Carbide Power Semiconductors (Silicon Development project)           12.15
4. Ultra Low Energy Community Systems                                                             2.92
5. Energy Security Audit & Islanding Methodology (Energy Security project)                        6.80
6. Lightweight, Flexible, Cost-Effective Solar Energy Photovoltaics (Photovoltaics project)      14.58
7. Develop Smaller, Lighter Cogeneration and Absorption Environmental Control Systems             6.32
     (Environmental Control project)
8. Micro-Grid Field Scaled Demonstration                                                          3.40
Subtotal                                                                                         72.90
Small Business Innovative Research and Small Business Tech Transfer Set-Aside*                   2.10
  Total                                                                                         $75.00
*We will review Small Business Innovative Research and Small Business Tech Transfer Set Aside
Recovery Act NTEET projects for all the Military Departments and DOD agencies in a separate report.

See Appendix D for more details on the eight Army NTEET projects.


                                                     4
Research and Development Contracting
The primary purpose of contracted research and development programs is to advance
scientific and technical knowledge and apply that knowledge to achieve agency and
national goals. Unlike contracts for other services and supplies, most research and
development contracts contain objectives for which the work or method cannot be
precisely described in advance. Although the Government prefers to use fixed-price
contracts, they do not usually apply in research and development contracting, where
specifications and cost estimates are usually not precise enough to permit a fixed-price
preference. Therefore, the DoD NTEET Program Plan, May 15, 2009, forecasted a
smaller percentage of fixed-price contracts for anticipated Recovery Act NTEET program
projects than for other Recovery Act project categories.

FAR part 35, “Research and Development Contracting,” states that the Broad Agency
Announcement (BAA) is used by agencies to fulfill their requirements for scientific study
and experimentation directed toward advancing the state of the art or increasing
knowledge or understanding rather than focusing on a specific system or hardware
solution. A BAA is used when proposals with varying technical or scientific approaches
can be reasonably anticipated. A BAA describes the agency’s research interest in an
individual program requirement or in broadly defined areas of interest covering the full
range of an agency’s requirements.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal control (MIC) Program Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in the Army Research, Development, and Engineering Command’s
posting of solicitation and award notices for contract actions. The Commander, U.S.
Army Research, Development, and Engineering Command, (RDECOM) should better
facilitate the transparency of contract actions awarded under the Recovery Act and posted
on Government Web sites by implementing Recommendations 1 and 2. We will provide
a copy of the report to the senior official responsible for internal controls at the U.S.
Army Research, Development, and Engineering Command.




                                           5

Finding. Army Near Term Energy-Efficient
Technologies Program Implementation
Army project officials used competitive techniques such as BAAs or cooperative
agreements to solicit or award contracts for six of eight Army Recovery Act NTEET
projects. As of December 31, 2009, contracts or cooperative agreements, valued at
$22.5 million, were awarded for three of the eight projects. However, the Army should
have:

       included required Recovery Act contract clauses in solicitations for two NTEET
        projects,
       informed the public of its intent to use existing contractors to perform the Silicon
        Research NTEET project, and
       described the procurement in the award notice of the Testbed Equipment project.

The Army did not include Recovery Act clauses because contracting officers did not
follow DOD and OMB guidance. The Army did not inform the public of its intent to use
existing contractors to perform the Silicon Research NTEET project and did not describe
the procurement in the award notice of the Testbed Equipment project because of a lack
of contracting office oversight. As a result, the Army did not achieve the transparency in
all its Recovery Act actions, which was a primary objective of the Recovery Act.

Competition for Army NTEET Contracting and
Solicitations
The Army planned to use contract actions to execute seven of the eight NTEET projects.
The eighth Army NTEET project used a combination of contracting with a competitive
cooperative agreement process. Overall, six of the eight Army NTEET projects were
solicited or awarded on a competitive basis including five that used the BAA process.

Use of Broad Agency Announcement Contracting Process
Army project officials used a BAA technique to solicit and award contracts for five of the
seven NTEET contract-based projects. BAAs are issued in accordance with
FAR paragraph 6.102(d)(2), “Use of Competitive Procedures,” paragraph 35.016, “Broad
Agency Announcement,” which provide for competitive selection of research and
development proposals.

As of December 31, 2009, for three of the eight Army NTEET projects, contracts and
cooperative agreements were awarded valued at $22.5 million out of the $72.9 million in
available Army RDT&E Recovery Act funds. The Army posted Recovery Act
solicitation notices using BAAs for five of the seven contract-based projects totaling
about $32.0 million. Army program officials evaluated the numerous proposals received
in response to the BAAs before they made the final awards. For example, program
officials advised us that they received about 24 proposals for the Photovoltaics project
and about 40 proposals for the Environmental Control project.

                                             6

Army’s Use of Fixed-Price Contracts for NTEET
Five Army NTEET projects will use fixed-priced contracts totaling about $42.2 million.
FAR 35.006, “Contracting methods and contract type,” states that the absence of precise
specifications and difficulties in estimating costs with accuracy normally preclude the use
of fixed-price contracting for research and development; therefore, the use of cost-
reimbursement contracts is usually appropriate. However, for some of the Army projects,
the specifications were sufficiently precise that fixed-price contracts were to be awarded.
For example, for the Energy Security project, one technical objective was to develop
installation energy security self-audit methodologies to improve installation energy
security, including the supply of electricity, natural gas, steam, and water. Program
officials determined that the objective was sufficiently detailed that a fixed-price contract
could be awarded. For the Photovoltaics project, officials awarded a fixed-price contract
to develop a portable, photovoltaic support system to provide power management and
energy storage and facilitate the use of power in the battlefield. Program officials
determined that fixed-priced contracts could be awarded because there was a lower level
of technical risk for the effort.

Inclusion of Recovery Act Contract Clauses in Army NTEET
Solicitations and Contracts
The Army did not include Recovery Act contract clauses in solicitations for two NTEET
projects (one solicitation per project) that it posted on the Government’s FBO Web site
because contracting officers did not follow DOD and OMB guidance. An April 13, 2009,
solicitation and an April 16, 2009, solicitation lacked the required clauses. Although the
Army posted the solicitations just before DOD guidance on including Recovery Act FAR
clauses was issued on April 21, 2009, the Army did not amend the solicitations to include
the required clauses. However, the Army included the required clauses in five contracts
awarded from the solicitations for the Environmental Control and Photovoltaics projects.
Nonetheless, the Army Research, Development, and Engineering Command should
comply with Recovery Act contracting requirements and include the required FAR
clauses in the solicitation announcements posted on public Web sites.

Public Transparency of Army NTEET Solicitations, Contracts,
and Cooperative Agreements
Although six of eight Army NTEET projects met transparency requirements for
solicitations, the Army contracting office should have increased transparency by
informing the public of its intent to use existing contractors to perform the Silicon
Research NTEET project and by better describing the procurement in a notice of award
for the Testbed Equipment NTEET project.

Six projects met transparency requirements because for all of the projects, the Army
posted Recovery Act solicitation notices that included the word “Recovery” in the title
and contained a clear description of the work required, as directed by FAR Subpart 5.2,
“Synopses of Proposed Contract Actions.” In addition, each solicitation referred
prospective offerors to the project’s BAA to obtain more detailed information on the
work.

                                             7

Cooperative Agreement Transparency
The Army addressed transparency in awarding three cooperative agreements under the
Photovoltaics project. On October 23, November 24, and December 4, 2009, the Army
issued cooperative agreements totaling $4.4 million to support the Photovoltaics project.
A cooperative agreement for research and development is a written agreement between a
Federal laboratory and a non-Federal party under which the Government provides
personnel and facilities to non-Federal parties to conduct specific research efforts
consistent with the mission of the laboratory. Cooperative agreements are appropriate
when ideas, staff, materials, and equipment are exchanged for collaboration or when an
invention may result. The Photovoltaics project cooperative agreement awards were
cost-reimbursable (no profit or fee) assistance instruments. The cooperative agreements
were subject to competition through a white paper (initial proposal) submission process.

The Army posted awards for the three cooperative agreements for the October through
December 2009 reporting period on www.recovery.gov. To meet the transparency and
oversight requirement in Section 1512 paragraph (c) of the Recovery Act, each contractor
reports on its use of Recovery Act funds, and these reports are made available to the
public 30 days after the end of the quarter. Army officials stated that they reported the
cooperative agreement awards in the Defense Assistance Awards Data System, a DoD
system that reports obligations of funds by assistance instruments to meet statutory
requirements for Federal Government reporting.

Projects Without Recovery Act Solicitations
The Army had not issued a solicitation for the $12.15 million Silicon Research project as
of December 31, 2009. However, the Army posted a notification to use an existing
indefinite-delivery, indefinite-quantity contract on the FBO Web site on February 11,
2010. The Army did not use a BAA for the project because Army officials stated that
only a few vendors could perform the project tasks. The Army planned to contact each of
the six vendors directly and award a task order package to each. On April 9, 2010, the
Army RDECOM awarded contract DAAD19-C-0067-P00008 valued at $12.15 million to
Honeywell International Inc., one of the six vendors, for the full amount of the project.
RDECOM noted to us that Honeywell International would subcontract approximately
$9.6 million of the award to the five other vendors. The Army’s award process was not
transparent to the public. Army contracting officials should have issued a public
presolicitation notification on the FBO Web site to disclose the process they planned to
use to contract for the NTEET project and to explain why they believed the contract
could not be competed using a BAA. Had officials posted the presolicitation notice, the
Army could have increased transparency by informing the public of its intent to use
existing contractors to perform another NTEET project.

The Army did not facilitate transparency on contract actions for the Testbed Equipment
project because it did not post a Recovery Act solicitation for the project, valued at
$14.5 million, or describe the procurement in the award notice posted on the FBO Web
site. Rather, the Army included the project as a modification to an existing non-Recovery
Act solicitation posted on the FBO Web site. That solicitation was dated July 17, 2008,
for design and construction of the Ground Systems and Power Energy Lab at Detroit

                                            8

Arsenal, Warren, Michigan. The Recovery Act funds supported the purchase and
installation of research and development equipment at the facility. On July 22, 2009, the
Army awarded a firm-fixed-price contract for $14.5 million in Recovery Act funds and
$25.7 million in non-Recovery Act funds. The award notice posted July 28, 2009, on the
FBO Web site did not describe the procurement for the Testbed Equipment project.
These examples demonstrate that the Army did not achieve transparency in all its
Recovery Act actions, which is a primary objective of the Recovery Act.

Jobs Created From Army NTEET Projects
Army officials offered one example of potential jobs to be created from the Army
NTEET program. The Army officials advised us that the Testbed Equipment project will
provide about 30 to 40 permanent engineering and lab technician positions at the Tank
Automotive Research, Development, and Engineering Center in Warren, Michigan, and
would encourage Defense contractors to open facilities in Michigan for research and
development. In addition, officials estimated that about 115 contractor jobs will be
created to build and install the equipment. The officials advised us that one cooperative
agreement will allow the Army’s Photovoltaics project to hire for four new positions and
retain three other employees funded by grants that were due to conclude soon. We could
not verify the number of jobs for the project because it has not yet been implemented.
We will review and report on the outcomes for this and other selected Army NTEET
projects in a future report.

Summary
Army officials were knowledgeable about the new Recovery Act guidance and generally
posted public notifications promptly to begin research programs to increase fuel
efficiency or alternative energy sources and, in addition, preserve and create jobs. For six
of eight NTEET Recovery Act projects, the Army used a competitive BAA process to
award new contracts, and program officials plan to issue fixed-price contracts on five of
the projects, totaling $42.2 million. Consequently, Army officials followed the Recovery
Act requirements using an acquisition process to award competitive, fixed-price actions
for most projects. Further, these results were achieved for research and development
projects, which normally preclude fixed-price contracting, while the Recovery Act
guidance was still evolving. We found that the Army included the relevant FAR clauses
and complied with the OMB transparency requirements in most instances except for two
NTEET project solicitations that did not contain the Recovery Act FAR clauses, although
contracts awarded from those solicitations included the required FAR clauses. A lack of
Army contracting office oversight on the Silicon Research project caused the impairment
of transparency regarding disclosing reasoning for using an existing multi-award contract
and on the Testbed Equipment project being acquired through a modification to a non-
Recovery Act contract.




                                             9

Management Comments on the Finding and Our
Response
The Executive Director, RDECOM Contracting Center, provided comments on three
issues in the report and agreed with the recommendations. The Executive Director, U.S.
Army Contracting Command, agreed with the response from the Executive Director,
RDECOM Contracting Center.

Army Comments on Inclusion of Recovery Act Contract Clauses
in Army NTEET Solicitations and Contracts
The Executive Director noted that the notification for solicitation W911NF-07-R-0001
that was posted on the FBO Web site on May 20, 2009, cited the Recovery Act FAR
clauses so that responders to the earlier solicitations were made aware that their proposals
and subsequent awards were subject to the Recovery Act clause stipulations.

Our Response
We appreciate the Executive Director’s response. We acknowledge that the May 20,
2009, notification for solicitation on the FBO Web site included the Recovery Act FAR
clauses. However, there is no assurance that responders to earlier solicitations (posted
April 13, 2009, and April 16, 2009) would review the May 20, 2009, solicitation because
each solicitation referred to a different topic and BAA.

Army Comments on Public Transparency of Army NTEET
Solicitations, Contracts, and Cooperative Agreements and on
Projects Without Recovery Act Solicitations
The Executive Director stated that the RDECOM Contracting Center adhered to the
March 13, 2009, Office of the Under Secretary of Defense guidance, “Posting Pre-
Solicitation and Award Notices: Reporting Contract Actions; and Reporting Performance
Assessments for Actions Funded by the American Recovery and Re-Investment Act of
2009,” in the February 11, 2010, posting of solicitation DAAD19-00-R-0005. The
Executive Director further stated that the command received no questions or comments
during the timeframe between the solicitation posting and the April 9, 2010, award. The
Executive Director indicated that the FBO Web site was appropriate for posting FAR-
based contract actions but a comparable instrument for cooperative agreement actions
like these was not available. The Executive Director stated that the March 19, 2010,
revised guidance did not require contracting personnel to amend non-awarded action
postings that were listed prior to the revised guidance.

Our Response
Based on the Executive Director’s comments and other Army-provided documentation,
we revised the report discussion to include the April 9, 2010, RDECOM award for the
Silicon Research project. The RDECOM posting of the February 11, 2010, Silicon
Research project solicitation DAAD19-00-R-0005 appeared to be in response to a
February 4, 2010, discussion draft of this report that noted that the Silicon Research
project was one of two Army NTEET projects without required solicitations as of
December 31, 2009. With the posting of solicitation DAAD19-00-R-0005, we agree that
                                            10 

the RDECOM Contracting Center has now adhered to the March 13, 2009, guidance.
The Executive Director’s comments regarding a March 19, 2010, memorandum appeared
to be referring to a August 19, 2009, memorandum, “Revised Posting and Reporting
Requirements for the American Recovery and Reinvestment Act of 2009.” With the
posting of solicitation DAAD19-00-R-0005, we agree that the RDECOM Contracting
Center also adhered to the August 19, 2009, memorandum. That memorandum states that
presolicitation notices are required for a task order contract that is going to be posted on
the FBO Web site.

Recommendations, Management Comments, and Our
Response
To improve Recovery Act contract compliance, we recommend that the
Commander, Army Research, Development, and Engineering Command:

1. Direct contracting officers to include appropriate Federal Acquisition Regulation
clauses in the solicitation announcements posted on public Web sites.

2. Establish internal policy implementing Office of Management and Budget
Memorandum 09-15, “Updated Implementing Guidance for the American Recovery
and Reinvestment Act of 2009,” February 18, 2009, relating to Recovery Act Near
Term Energy-Efficient Technologies Program contracts and cooperative
agreements solicited and awarded by the Command.

Army Comments
The Executive Director, RDECOM Contracting Center, agreed with Recommendation 1
and stated that his command will issue a reminder to all RDECOM Contracting Center
contracting officers on the importance of including the required Recovery Act FAR
clauses in applicable solicitations and resultant contracts.

The Executive Director also agreed with Recommendation 2 stating that the RDECOM
Contracting Center will issue internal policy implementing OMB Memorandum 09-15,
“Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009,” relating to Recovery Act Near Term Energy-Efficient Technologies Program
contracts and cooperative agreements solicited and awarded by the command.

Our Response
The comments were partially responsive to the intent of the recommendations as the
Army did not provide the expected dates of completion of the proposed actions for
Recommendations 1 and 2. We request that the Executive Director provide completion
date(s).




                                            11 

Appendix A. Scope and Methodology
This is the first in a series of reports on DOD implementation of the Recovery Act
NTEET program. We conducted this performance audit from September 2009 to May
2010 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and our conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objectives.

Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
execution, and tracking and reporting of the Army non-small-business research and
development projects in the DOD NTEET program plan, May 15, 2009, to determine
whether they complied with Recovery Act requirements, OMB guidance, the FAR, and
DOD implementing guidance. We reviewed NTEET program related solicitation and
contract award notices posted on the FBO Web site through December 31, 2009.
Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      contracts contained required Recovery Act FAR clauses (Project Execution).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. Initially,
we selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations. We used information collected from all projects to
update and improve the risk assessment model.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used the notices
on the FBO Web site, www.recovery.gov, and contract documentation from the

                                            12 

Electronic Data Archive System. We tested the accuracy of the data by comparing the
project data reported on these systems for consistency. Our audit was focused on the
reporting of contract actions on specific Army projects. From these procedures, we
concluded that the DOD data were sufficiently reliable for our purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                          13 

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009


                                           14 

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 20092

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 2010 2

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.



                                                     15 

Appendix C. DOD Near Term Energy-
Efficient Technologies Program Funding and
Functional Areas
The Recovery Act appropriated $300 million in DOD RDT&E funds in four
appropriation accounts of $75 million each for Army, Navy, Air Force, and Defense-wide
RDT&E Recovery Act projects. The DOD NTEET program divided the funds to support
project categories. The table below provides the RDT&E funding and category of the
planned work.

        Program Categories and Values of Energy-Related RDT&E Projects
                              (values in thousands)
        Category          Army         Navy          Air  Defense-     DOD
                                                    Force  Wide        Total
Fuel Optimization for
Mobility Platforms            $40,000     $52,900      $28,000       $16,000      $136,900
Facility Energy Initiatives    10,000       3,500                                   13,500
Operational Efficiencies/
Commercial Practices           None         None         1,000         9,000        10,000
Domestic Supply and
Distribution                   15,000       16,100      37,000        47,000       115,100
Tactical Power Systems and
Generators                     10,000        2,500       9,000         3,000        24,500
    Total                     $75,000     $75,000      $75,000       $75,000      $300,000


The energy-related projects have the potential to identify technologies that can increase
our fuel efficiency and thereby reduce our dependence on foreign energy.

Fuel Optimization for Mobility Platforms
These RDT&E efforts included testing various materials, like ceramics, in engine and
equipment design to lower thermal loads and decrease the need for cooling of component
parts that require additional energy to perform the cooling tasks. Efforts also included
conducting demonstrations on the fuel efficiency of low observable subsonic propulsion
systems for unmanned aerial vehicles.

Facility Energy Initiatives
These projects included developing or reviewing off-the-shelf enterprise energy auditing
programs and software that can couple energy security with energy efficiency, reducing
power consumption in tactical heating and air-conditioning systems, and developing
whole-building energy modeling and monitoring systems and renewable energy building
integration.



                                            16 

Operational Efficiencies/Commercial Practices
These projects included developing or reviewing off-the-shelf enterprise energy auditing
and water management programs and software that can couple energy security with
energy efficiency, whole-building energy modeling, monitoring systems, and renewable
energy building integration.

Domestic Energy Supply/Distribution
These included waste-to-energy and waste-to-fuel technology research and
demonstrations, landfill gas use, biomass and algae fuel oil production, multijunction
solar photovoltaics for cells and sensors, wave and thermal energy from oceans, wind
power and analyzing radar cross sections.

Tactical Power Systems/Generators
These projects included developing and demonstrating methanol-based portable fuel cells
with improved energy densities, long-duration multijunction photovoltaics for UAVs,
waste heat to cooling using absorption environmental control systems, and scalable
micro-grid electrical distribution systems for fixed and tactical installation use.




                                           17 

Appendix D. Description and Status of Army
Near Term Energy-Efficient Technologies
Projects
The Recovery Act provided $75 million of RDT&E funding for improvements in energy
generation and efficiency, transmission, and storage and for use on military installations
and within operations forces. The projects included research and development of energy
from silicon carbide, flexible solar energy photovoltaics, and microgrids.

1. Advanced Power Electronics Ground Systems Testbed
Equipment
The Advanced Power Electronics Ground Systems Testbed Equipment project (Testbed
Equipment project) provides state-of-the-art equipment to be installed into the Ground
Systems Power and Energy Laboratory. The Ground Systems Power and Energy
laboratory and the Advanced Power Electronics Ground Systems Testbed Equipment
provides the Army with a state-of-the-art research and development laboratory. The
laboratory will have the capability to test, optimize, and integrate all current and
alternative power generation, such as hybrid electric power-train development and energy
storage systems, as well as power management and control systems, into current and
emerging vehicles. One contract was awarded in July 2009 for the total amount of the
project; however, the Army should have added a project description to the award
announcement on the FBO Web site to facilitate transparency.

2. High Temperature Silicon Carbide Power Semiconductors
The High Temperature Silicon Carbide Power Semiconductors project (Silicon Research
project) addresses the gap between the capabilities of devices and components used on
Army platforms for power conversion and the requirements of platforms to operate in
harsh environments. The project is to develop materials, designs, and fabrication
techniques for high-performance silicon carbide devices, modules, and passive
components used in power conversion electronics for ground vehicles, tactical generators,
and other high-power platforms. It will also include research on advanced packaging
concepts for high-current, low-loss silicon carbide modules to enable these devices to
operate efficiently in high-temperature environments. However, as noted in the Finding
discussion, the Army should facilitate transparency by informing the public of its intent
to use existing contractors to perform the Silicon Research project. On February 11,
2010, the Army posted a notice on the FBO Web site of the intent to award a task order to
an existing contract. On April 9, 2010, the Army RDECOM awarded contract DAAD19-
C-0067-P00008 valued at $12.15 million to Honeywell International Inc.

3. High Temperature Silicon Carbide Power Semiconductors
The High Temperature Silicon Carbide Power Semiconductors project (Silicon
Development project) is for the development of efficient, high-temperature silicon
carbide power electronics for military vehicles that use hybrid electric mobility and

                                            18 

power generation systems. The reductions in cooling system and electrical power
converter size and weight, along with increased cooling efficiency and power conversion
efficiency, will make vehicle electric and hybrid electric power systems smaller, lighter,
and more fuel-efficient. This effort is to quantify the advantages and demonstrate the
feasibility of silicon carbide power electronics, to overcome the main barriers to
commercial development of this technology. The solicitation was posted on the FBO
Web site on May 27, 2009, and included the Recovery Act FAR requirements by
reference to the BAA. On February 25, 2010, the Army awarded three cost
reimbursement contracts with a total value of $12.1 million for the Silicon Development
project.

4. Ultra Low Energy Community Systems
The project is to develop concepts, methodologies, integrated technologies, and
validations by modeling one or more Army installations. The objective is to change the
typical Army installation to an ultra-low-energy-consuming community that achieves
reduced energy wastes and greater use of energy-conserving (ultra-low-energy)
technologies, maximized use of renewable energy technologies, and optimized life-cycle
cost. The project included developing energy models providing an optimal selection of
cost-effective, low-energy technologies to meet energy demands for a specific site with
its unique weather, buildings, energy costs, and occupancy. The project was added to the
U.S. Army Engineer Research Development Center Broad Agency Announcement, and
the Recovery Act synopsis was posted on the FBO Web site on May 1, 2009, and met
FAR clause and transparency requirements. Program officials said they had received
eight responses to the solicitation. The Army awarded fixed price contracts on
January 22 and February 22, 2010, respectively, valued at $0.5 million and $2.4 million,
for the Ultra Low Energy Community Systems project.

5. Energy Security Audit and Islanding Methodology
The Energy Security Audit and Islanding Methodology project (Energy Security project)
is to develop energy security self-audit methodologies and analysis tools for Army
installations to validate at up to 16 sites. Also, the project will develop the capability to
continue critical missions separate from the commercial electric grid. Installation energy
security consists of the capacity to avoid any adverse impact to critical missions caused
by natural, accidental, or intentional events adversely affecting installation energy and
utility supply. The solicitation was posted on the FBO Web site on May 1, 2009, and met
the FAR clause and transparency requirements. Program officials said they had received
eight responses to the solicitation. From February through March 2010, the Army
awarded six fixed price contracts with a total value of $6.8 million for the Energy
Security project.

6. Lightweight, Flexible, Cost-Effective Solar Energy
Photovoltaics
The Lightweight, Flexible, Cost-Effective Solar Energy Photovoltaics (Photovoltaics
project) is to develop flexible solar technology addressing battlefield power and energy
needs. The objective is to increase the conversion efficiency of Photovoltaics to benefit
both the commercial and military user. One benefit of this project is to provide power for
                                             19 

battery recharging, sensors, surveillance systems, shelters, and small command posts and
to reduce battlefield logistics of supplying fuel and batteries.

Three solicitations to support this project were issued April 16, May 20, and August 6,
2009. According to contracting officials, about 24 proposals were received for the
April 16 solicitation, and about 36 were received for the May 20 solicitation. As of
December 31, 2009, four contracts and three cooperative agreements had been awarded.
However, as noted in the finding, the Army should have included required Recovery Act
clauses in the April 16, 2009, solicitation or a subsequent amendment.

7. Develop Smaller, Lighter Cogeneration and Absorption
Environmental Control Systems
The Develop Smaller, Lighter Cogeneration and Absorption Environmental Control
Systems (Environmental Control project) is to demonstrate the co-generation of cooling,
heating, and power from waste heat sources, such as diesel engine exhaust, and engine
cooling fluids. Another objective is to develop small, light-weight, efficient
environmental control technologies. The benefit of the project is to reduce size, weight,
or fuel consumption for a variety of stand-alone and platform-mounted co-generation
applications.

The solicitation and BAA were posted on the FBO Web site on April 2009, and while the
solicitation mentioned the effort was part of the Recovery Act, it did not contain the
specific FAR clauses relating to the Recovery Act. Program officials stated they received
about 40 white paper proposals. On December 15, 2009, and March 16, 2010, the Army
awarded two cost reimbursable contracts valued at $1.5 million and $0.6 million,
respectively, for the Environmental Control project.

8. Micro-Grid Field Scaled Demonstration
The objective of this project is to develop hardware, software, and controls to implement
a field-scale microgrid at (part of) an Army installation. The microgrid represents a new
approach to integrating distributed energy resources to meet growing customer needs for
electric power, emphasizing flexibility, reliability, power quality, and improved
efficiencies. The demonstration will determine the microgrid’s ability to quantify and
combine distributed energy technologies with other distributed generation sources in a
seamless manner for meeting the power and energy needs of all mission-critical loads.

The solicitation was posted on the FBO Web site on May 1, 2009, and met the
transparency requirements. Program officials said that they were evaluating 15 responses
to the solicitation. No awards had been made as of March 31, 2010.




                                           20 

Click to add JPEG file




               22
Click to add JPEG file




               23
